          OFFICE OF
   THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




     THE IMPACT ON NETWORK
         SECURITY OF THE
SOCIAL SECURITY ADMINISTRATION’S
 OPERATING SYSTEMS’ CONVERSIONS

  September 2004   A-14-04-24019




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM
Date:   September 17, 2004                                                  Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Impact on Network Security of the Social Security Administration’s Operating
        Systems’ Conversions (A-14-04-24019)


        OBJECTIVE

        Our objective was to determine if the Social Security Administration’s (SSA) conversion
        from the Windows NT operating system increased, maintained, or decreased network
        security.

        BACKGROUND
        The network operating systems in SSA’s distributed data processing environment have
        intrinsic security features that protect the sensitive information that the Agency
        processes, stores, and transmits. In converting from its Windows NT network operating
        system, SSA had the opportunity to maintain, diminish, or enhance network security.
        The effect the conversion will have on network security depends on SSA’s ability to take
        advantage of the security features the operating systems contain.

        Operating system security features work by limiting user access to system resources
        including data and application programs. They also identify and report on such
        accesses. These identification, exclusion, and reporting functions keep unauthorized
        individuals or groups from obtaining confidential information that they do not legitimately
        need. The use of these security features is affected by system security configuration
        settings. The availability of specific features and the configuration settings vary
        depending on the operating system. The security features of newer operating systems
        tend to be more specific in defining who has access to sensitive resources, and
        reporting these accesses.

        We began this audit when SSA began to migrate its network environment to the newer
        Windows 2000 operating system. We conducted our review to determine the effect that
        changing from one operating system’s security features to another would have on
        overall network security.
Page 2 – The Commissioner

SCOPE AND METHODOLOGY

We reviewed SSA's operating system migration to determine its effect on a number of
factors of network security. These factors included: 1) the security capabilities of the
operating systems involved; 2) the criteria used to select and set security features;
3) the effect security-related settings would have on system operation for the users;
4) any problems encountered by changing the operating systems; and 5) compliance
with Government standards and industry best practices.

We based our determinations on interviews with staff involved with the operating system
migration and on the examination of policy, practice, and available management
information, as well as guidelines, standards, and best practices.

During the course of our audit, SSA expanded its operating system migration plan to
include a changeover to a third, newer operating system environment using Windows
2003 and Windows XP. This expansion was initiated before the original migration from
Windows NT to Windows 2000 was completed. The scope of this audit encompasses
this migration as well.

We audited components within SSA’s Office of Systems and Office of Operations at
SSA Headquarters in Baltimore, Maryland between June 2003 and April 2004. Our
audit was conducted in accordance with generally accepted government auditing
standards.

RESULTS OF AUDIT
SSA migrated its network environment from one based on Windows NT to one based
on Windows 2000. Because of strategic considerations including the problems
encountered, SSA decided to migrate ahead of schedule to the next operating systems,
Windows 2003/XP. With each conversion, the Agency has taken advantage of newer,
improved, and more developed operating systems to increase network security. SSA
network developers acknowledge, and we noted, several problems that prevented the
migrations from proceeding as originally planned.

   •   When SSA implemented Windows 2000, its security settings would not allow a
       number of application programs to run.

   •   Some of the application compatibility problems experienced in the first migration
       are beginning to surface in the second.

   •   In cases of problem applications, SSA does not use an established and
       enforceable set of standardized processes and programming language to ensure
       operating system security compliance and compatibility.
Page 3 – The Commissioner

    •   Integration and Environmental (IE) testing procedures, which prevent the
        implementation of problem applications, were not always used in the operating
        system migrations.

WINDOWS NT TO WINDOWS 2000 MIGRATION

Federal law1 and guidance2 require SSA to provide for the cost-effective security and
privacy of sensitive information in its systems. This is to “assure that adequate security
is provided for all agency information collected, processed, transmitted, stored, or
disseminated in general support systems and major applications.” To provide such
security, the migration as originally planned used a Windows 2000 security template to
enforce security at a high level. Although not mandated to do so, the Agency chose to
develop its template by adapting the most secure of five available templates, the “Gold
Standard Template”3 to the SSA network environment.

This collection of security configuration settings was very restrictive and would not allow
some applications to access system resources they needed to run. Applications
affected included those developed for earlier environments and carried over as “legacy”
applications. These and other applications posed problems when their developers
didn’t ensure their compatibility with the new network environment. Some of these
applications4 are used on a routine basis for regular Agency operations.

Developers first tried to solve the problems encountered by lowering, turning off, and/or
circumventing the configuration settings of the security template so that individual
applications could run. This compromised the system security. After SSA made a
number of these adjustments to the security template, it decided that the template was
not capable of providing the intended level of security and replaced it with one
containing lower security, specifically default, configuration settings. They also started
to modify applications individually so that they could eventually run under higher security
settings. SSA believed that if all necessary applications were modified in this way, the
system would return to a high security level. This process, however, became overly
time consuming and demanding of programmer resources, and was not guaranteed to
work.

After we initiated our audit, SSA abandoned this approach, settled the network
environment at whatever level of security it could implement and still run the problem
applications, and started to concentrate efforts on a new environment.


1
  The Computer Security Act of 1987, Pub. L. No. 100-235 §4.
2
  Office of Management and Budget (OMB) Circular No. A-130, Appendix III, A.3.
3
  The “Gold Standard Template” is the composite best thinking of security groups that have developed
security templates in the past (National Institute of Standards and Technology, National Security Agency,
SANS Institute, etc.).
4
  These applications include, for example, national legacy applications that are used for: Amortization,
Computation of Military Income, One Time Payment, Net Rental Income, and Retrospective Monthly
Accounting.
Page 4 – The Commissioner

SSA’s network systems environment currently operates as a compromise as follows:

    •   Servers run the older Windows NT operating system to authenticate users to the
        system,
    •   Servers run Windows 2000 to manage accesses to data and applications, and
    •   User workstations run on Windows 2000 without high security.

This compromise may provide better security than networks running solely on older
operating systems, like Windows NT, but does not take advantage of the security
potential that Windows 2000 or newer operating systems provide.

In the current network environment, overall network security configuration settings have
to be changed to allow legacy application programs to run on newer operating systems
with more stringent requirements. These changes are necessary because the
programs themselves are not being changed to accommodate higher network security.

WINDOWS 2000 TO WINDOWS 2003/XP MIGRATION

In 2003, SSA began the transition to a newer network operating system environment:
Windows 2003 for servers and Windows XP for workstations (Windows 2003/XP). This
implementation is currently under development with different projects progressing at
different rates and is subject to the same requirements for security as previously
discussed.5 Both the server and workstation operating systems should be able to work
with similar security templates and take advantage of enhanced features for providing
security, including Active Directory.6 Such capability would lessen the risk of
inappropriate access while maintaining a high level of security like that specified in
Microsoft’s High Security template.

It is impossible to verify at this point whether Windows 2003 and Windows XP will be
implemented to use high security templates that permit all necessary applications to
run. The environment using these operating systems is still under development.
Project plans for some components have not been drafted yet and some are still subject
to frequent changes. The planned security templates are still being modified on a
regular basis to accommodate users and applications. Even this early in the transition,
developers have found the same problems as in the first migration. Some applications
may still require security adaptations that lower, turn off, and/or circumvent configuration
settings.




5
  OMB Circular No. A-130, Appendix III, A.3, and the Computer Security Act of 1987,
Pub. L. No. 100-235.
6
  The Active Directory feature allows the operating system to manage access to system resources and
users with more granularity, or a greater degree of specificity. Access to particular system resources can
be granted or denied to smaller, more exclusive groupings of users, or even individual users where
before they were managed on the basis of larger, less specific groupings.
Page 5 – The Commissioner

STANDARD APPROACH TO APPLICATION DEVELOPMENT

SSA does not require legacy or new applications to be changed or developed to
appropriately use newer security capabilities. Currently, the Office of
Telecommunications and Systems Operations (OTSO) maintains and enforces a
standardized process that ensures its applications are compatible with the security
potential of newer operating systems. Generally, applications developed by non-
headquarters components do not follow the same development process as OTSO’s.
There is no Agency-wide entity to ensure that standards are met. Without enforcing
Agency-wide standards, some SSA applications are developed that are incapable of
taking advantage of the high security configuration settings available in newer operating
systems.

There is nothing to prevent new application programs that require either “work-arounds,”
or holes in the security templates, from being developed and installed on SSA’s network
structure. As a result, template adaptations may prevent the use of “high security”
configuration settings available in the Agency’s newer operating systems.

INTEGRATION AND ENVIRONMENTAL TESTING

IE testing is used to ensure that new software can effectively be incorporated into the
current operating environment. IE testing serves to identify system incompatibilities
before they are put into production. Some Agency components create network software
applications that avoid IE testing and still run in the network environment. Without
testing, SSA has no assurance that network applications adhere to software
development guidelines established to ensure compatibility with accepted security
standards.

Developers did not apply OTSO’s IE testing procedures for all application programs that
run under the network security structure. In some cases, non-headquarters applications
did not require this testing.

In the future, SSA should use IE testing to help avoid incompatibilities when
implementing new systems and should expand its use to all applications in its network
environment. IE testing, if complete and extensive, could also have detected the
incompatibilities between Windows 2000 and legacy applications that were discovered
only on implementation. Detecting incompatibilities in a controlled, confined testing
environment, rather than in production, minimizes the risk of exploitation or corruption of
SSA’s information resources.
Page 6 – The Commissioner

CONCLUSIONS and RECOMMENDATIONS
SSA continues to migrate its network environment from one based on the Microsoft
Windows NT operating system to one based on the newer Microsoft operating systems,
Windows 2003 and Windows XP.

Each of the conversions involved, from Windows NT to Windows 2000 and from
Windows 2000 to Windows 2003/XP, has increased network environment security over
the level of security that preceded it. The problems the Agency encountered during
these conversions, did however, prevent network security from reaching the full
potential available in its newer operating systems.

We recommend SSA:

   1. Require new application programs installed on SSA’s network structure be
      developed to operate under the high security configuration settings originally
      intended for SSA’s network environment.

   2. Require, where possible, applications carried over from older operating system
      environments be replaced or modified when incompatible with newer, more
      stringent security configurations.

   3. Require network applications to undergo adequate IE testing to meet security
      requirements under operating systems using high security configuration settings.

AGENCY COMMENTS AND OIG RESPONSE
In response to our draft report, SSA agreed with all three recommendations and plans
to implement the recommended changes. SSA will continue to work to ensure that new
and existing applications are tested and secured prior to implementation, and are
compliant with best practices described under Microsoft’s Designed for Windows XP
Logo Program. SSA also plans to modify or replace applications as necessary to adopt
them to newer operating systems with higher security configurations.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                        Appendix A
Acronyms
IE     Integration and Environmental
OMB    Office of Management and Budget
OTSO   Office of Telecommunications and Systems Operations
SSA    Social Security Administration
                  Appendix B
Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM                                                                                33175-24-1100


Date:      September 3, 2004                                                  Refer To:    S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Impact on Network Security of the
           Social Security Administration’s Operating Systems’ Conversions” (A-14-04-24019)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           If you have any questions, you may contact Candace Skurnik, Director of the Audit Management
           and Liaison Staff, at extension 54636.

           Attachment




                                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT REPORT,
“THE IMPACT ON NETWORK SECURITY OF THE SOCIAL SECURITY
ADMINISTRATION’S OPERATING SYSTEMS’ CONVERSIONS” (A-14-04-24019)

Thank you for the opportunity to review and provide comments on this report. The Social Security
Administration (SSA) continues to maintain a secure information systems environment as we
convert to use newer operating systems with more stringent security configurations. Our
commitment to achieving maximum security in this area is evidenced by our decision, made in the
absence of relevant Government standards, to develop our security template by adapting the most
secure available template (the “Gold Standard Template”) to the SSA network environment.

Recommendation 1

Require that new application programs installed on SSA’s network structure be developed to
operate under the high security configuration settings originally intended for SSA’s network
environment.

Comment

We agree. New applications are required to meet high security standards set by the Agency.
Specifically, we require that newly developed applications be developed using the best practices
described under Microsoft’s Designed for Windows XP Logo Program, and that appropriate testing
be performed to ensure new applications are compliant.

Recommendation 2

Require that, where possible, applications carried over from older operating system environments
be replaced or modified when incompatible with newer, more stringent security configurations.

Comment

We agree. We will make modifications to or replace applications as necessary to maintain a high
security environment when using such applications with newer operating systems with higher
security configurations. When making decisions about modifying or replacing existing
applications, we will balance the risks, costs, and benefits, as well as consider the remaining system
life of such applications.




                                                 B-2
Recommendation 3

Require network applications to undergo adequate Integration and Environmental (IE) testing to
meet security requirements under operating systems using high security configuration settings.

Comment

We agree. SSA system application developers are required to follow an application development
process which includes IE testing. We continue to work aggressively to ensure all applications are
appropriately tested and secured prior to implementation, irrespective of the network environment
on which they are intended to be used.




                                                B-3
                                                                          Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technical Audit Division
   (410) 965-9702

   Patrick Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques
   (410) 965-9724

Acknowledgments

In addition to those named above:

   Gregory P. Hungerman, Senior Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or contact
the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218. Refer to
Common Identification Number A-14-04-24019.
                                 DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
